                   U.S. Department of Energy
                   Office of Inspector General
                   Office of Audits and Inspections




AUDIT REPORT
Public Dissemination of Research Results




 DOE/IG-0912                          May 2014
                                  Department of Energy
                                     Washington, DC 20585

                                           May 22, 2014


MEMORANDUM FOR THE SECRETARY


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "The Department of Energy's
                          Public Dissemination of Research Results"

BACKGROUND

The Department of Energy invests over $11 billion annually in research and development.
Although a large part of these funds are expended directly by the Department's National
Laboratory system, significant funding is provided through financial assistance awards to
academic institutions, small businesses, and others and, through Cooperative Research and
Development Agreements (CRADA) initiated by Department field and contractor-operated sites.
The Atomic Energy Act of 1946 and subsequent laws and regulations encouraged the
dissemination of Department-sponsored research results, when appropriate. The Department's
mandate to publicly disseminate unclassified research results is fulfilled by the Office of
Science's Office of Scientific and Technical Information (OSTI) in Oak Ridge, Tennessee. The
results of research funded by the Department are submitted to Energy Link (E-Link), the
Department's system for collecting, reviewing and releasing technical reports and other forms of
scientific and technical information. E-Link, which is operated by OSTI, contains the results
from research, development, demonstration and commercial activities. OSTI's inventory
includes 1.2 million full-text paper documents; approximately 344,000 publicly available full-
text electronic documents; and, approximately 2.2 million citations of publicly available
documents.

Due to the Department's sizeable investment in research and the importance of making research
results available as broadly as possible, we initiated this audit to determine whether the results of
taxpayer-funded science and energy research were properly disseminated. We focused on
research funded by the Department through financial assistance awards and CRADAs.

RESULTS OF AUDIT

Department-funded science and energy research results were not always properly disseminated
to the public. We found that financial assistance recipients had not always submitted final
technical reports to OSTI, unrestricted reports submitted to E-Link were not always reviewed
and subsequently released publicly, and reports were not released after the expiration of
associated data protection periods. Specifically:

   •   Financial assistance recipients had not submitted final technical reports for about 1,863 of
       7,802 (24 percent) of the financial assistance awards that ended during Fiscal Years 2006
       to 2012 at five offices we selected for review.
   •   About 1,094 of 4,341 (25 percent) final reports we examined had not been made publicly
       available. The program offices failed to make these reports available to the public even
       though the entities submitting them had not identified any restrictions on distribution.

   •   The Department had not always released final reports eligible for public release at the end
       of respective data protection periods. CRADA and Small Business Innovation Research
       and Small Business Technology Transfer (SBIR/STTR) reports are protected from
       disclosure for periods of up to 5 years, and, in some cases, even longer. Our examination
       of data provided by OSTI identified 4,300 CRADA and SBIR/STTR reports that were
       beyond the respective data protection periods and had not been released to the public.

The problems we identified occurred due to weaknesses in the Department's processes for
monitoring receipt of final reports from recipients, reviewing and releasing reports that have
been received, addressing processing errors that prevent receipt or release of reports, and
identifying and releasing reports upon expiration of data protection periods.

The failure to obtain and disseminate the results of Department-funded research has been a long-
standing problem that the Office of Inspector General has previously brought to management's
attention. Specifically, in our 1997 report on Departmental Receipt of Final Deliverables for
Grant Awards (DOE/IG-0415, December 1997), we found that final technical reports had not
been received or were waived for grants awarded by five different awarding offices. More
recently, in our reports on Cooperative Research and Development Agreements at the
Department of Energy's Office of Science Laboratories (DOE/IG-0826, September 2009), and
Cooperative Research and Development Agreements at National Nuclear Security
Administration Laboratories (OAS-M-13-02, March 2013), we found that contractors that
manage and operate the Department's national laboratories had not sent final technical reports to
OSTI. Effective action to correct this problem is necessary to ensure that the results of
Department-funded research are properly disseminated so that the work can be used by other
researchers. In this way, science is advanced and the return on the taxpayers' investment is
maximized. Moreover, the lack of documented Department research results increased the risk of
redundant research and wasteful spending.

We made several recommendations that, if implemented, should improve the timeliness of
dissemination of research results to the public. To their credit, OSTI officials told us that they
were taking corrective actions on several of the issues we brought to their attention.

MANAGEMENT REACTION

Management generally concurred with our recommendations and identified planned actions or
actions already completed to address our recommendations. We considered management's
comments responsive to our recommendations. Management's comments are included in
Appendix 3.

Attachment

cc: Deputy Secretary
    Deputy Under Secretary for Science and Energy
    Under Secretary for Nuclear Security
    Chief of Staff
                                             2
AUDIT REPORT ON PUBLIC DISSEMINATION OF RESEARCH
RESULTS


TABLE OF CONTENTS

Audit Report

Details of Finding…………………………………………………………………………………1

Recommendations…………………………………………………………………………………7

Management Response and Auditor Comments…………………………………………………..8

Appendices

  1. Objective, Scope and Methodology……………………………………………………….9

  2. Prior Reports…………………………………………………………………………..…11

  3. Management Comments………………………………………………………………....13
PUBLIC DISSEMINATION OF RESEARCH RESULTS

DETAILS OF FINDING
The Offices of Science (Science), Fossil Energy (Fossil Energy), Nuclear Energy (Nuclear
Energy), Energy Efficiency and Renewable Energy (EERE), and the Small Business Innovation
Research/Small Business Technology Transfer (SBIR/STTR) program (referred to collectively
as program offices) provide financial assistance awards to academia, small businesses, and others
to fund research projects as part of the Department of Energy's (Department) science and energy
mission. At the completion of a research project, financial assistance recipients submit their final
technical reports through the Department's Energy Link (E-Link) system, operated by the Office
of Scientific and Technical Information (OSTI). E-Link generates an automated email to the
responsible releasing official or awarding office. The report is then reviewed and released to
OSTI for public dissemination. The released report is processed by OSTI's systems, stored and
made available to the public through traditional web search technology. Reports for Cooperative
Research and Development Agreements (CRADAs) are processed and reviewed at Department
field and contractor operated sites before submission to OSTI. Financial assistance recipients,
sites and offices may individually upload the reports via E-Link and the majority of Department
laboratories utilize established automated options for routine submission of reports.

Department-funded science and energy research results were not always properly disseminated
to the public. Specifically, we found that financial assistance recipients had not always
submitted final technical reports to OSTI, and that reports submitted to E-Link without
restrictions were not always reviewed and released for public access. Additionally, we identified
issues regarding public release of documents after data protection periods expired.

Receipt of Reports

As shown in Table 1, OSTI had not received final reports for 1,863 of 7,802 (24 percent)
financial assistance awards that ended during Fiscal Years (FYs) 2006 to 2012 at the five
program offices included in our review.

               Table 1: Receipt of Reports for Financial Assistance Awards
                                    FYs 2006 to 2012
                                          Awards with      Awards without Final Report
    Program Office      Total Awards* Final Reports           Number       Percentage
 Science                      2,931             1,824           1,107           38%
 SBIR/STTR                    2,222             1,867             355           16%
 EERE                         1,563             1,223             340           22%
 Fossil Energy                  877               826              51            6%
 Nuclear Energy                 209               199              10            5%

                    Totals            7,802                  5,939              1,863                  24%
*Excludes awards that did not require a final technical report in the award terms. However, Science was unable to
 identify those awards that did not require a final report; therefore, we included the total number of awards.




Details of Finding                                                                                        Page 1
Of the 1,863 awards without final technical reports, 1,465 awards (79 percent) had expired at
least 1 year prior to March 31, 2013. Financial Assistance Rules (10 CFR 600.171) required that
recipients submit all reports within 90 days of the completion of the award term.

Not receiving reports has been a long-standing problem at the Department. In our report,
Departmental Receipt of Final Deliverables for Grant Awards (DOE/IG-0415, December 1997),
we found that the Department did not receive final technical reports for grants awarded through
five awarding offices and, in some cases, the reporting requirements were waived. In our more
recent audit reports, Cooperative Research and Development Agreements at the Department of
Energy's Office of Science Laboratories (DOE/IG-0826, September 2009), and Cooperative
Research and Development Agreements at National Nuclear Security Administration
Laboratories (OAS-M-13-02, March 2013), we identified similar issues at the Department's
contractors. Specifically, we found that contractors were not submitting final research reports
funded through CRADAs to OSTI as required.

Public Release of Reports

We also found a significant number of financial assistance final reports submitted to E-Link had
not been reviewed and released for public availability even though the financial assistance
recipients submitting the reports had not identified any restrictions on distribution. Not all
technical reports will become publicly available because distribution of certain types of
information is restricted by various laws and regulations. Examples include export controlled
information, proprietary information, and copyrighted material. Other data, such as final reports
from the Department's SBIR/STTR programs and CRADAs may be restricted for a limited
period of time. OSTI maintains systems whereby restricted reports may be available for
Department use during the restricted period as authorized. Specific information, by program
office, is detailed in Table 2.

      Table 2: Public Availability of Final Reports for Financial Assistance Awards
                                     FYs 2006 to 2012
                      Reports Without Released and Awards Not Publicly Available
                       Restrictions on       Publicly
   Program Office        Release*           Available       Number          Percentage
  Science                     1,852            1,047             805            43%
  SBIR/STTR                      344             162             182            53%
  EERE                        1,097            1,040              57             5%
  Fossil Energy                  884             835              49             6%
  Nuclear Energy                 164             163               1           < 1%

                  Totals               4,341                3,247               1,094                 25%
*The total number of reports is not the same as in Table 1 because of report release restrictions and some recipients
  submitted more than one report per award.

As noted in Table 2, 1,094 reports (25 percent) of the total number of reports without restrictions
were not publicly available. Of these reports, 495 had been awaiting review for at least 1 year as
of March 31, 2013, with 203 that had been awaiting review for over 5 years.



Details of Finding                                                                                         Page 2
Expiration of Data Protection Periods

Finally, we found that the Department and its CRADA sites did not initiate action to release
SBIR/STTR grant and CRADA final reports once statutory data protection periods expired.
Final reports from SBIR/STTR grants are protected from disclosure for a period of at least 4
years and CRADA reports are protected for 5 years. Data provided by OSTI demonstrated that
as of July 26, 2013, there were 3,892 SBIR/STTR reports with no other restriction identified that
were submitted at least 4 years ago; however, the Department had not taken steps to release the
reports unless a request was made. Additionally, as of March 31, 2013, we identified 408
CRADA reports that had not been publicly released although it was after the respective
protection period and had no other restrictions on the release.

Processes over Receipt and Release of Final Reports

The problems we identified occurred due to weaknesses in the Department's processes for
monitoring receipt of final reports from recipients, reviewing and releasing reports that have
been received, addressing processing errors that prevent release of reports, and identifying and
releasing reports upon expiration of data protection periods.

                            Monitoring Receipt of Final Reports

We found that program offices did not always provide adequate monitoring of financial
assistance recipients to ensure the receipt of their final reports. Notably, we found that program
offices did not provide sufficient follow-up when recipients were unresponsive. Although
financial assistance recipients were informed at the beginning of their awards that final technical
reports were due within 90 days after the end of their award, many recipients did not submit
reports until they were contacted by the Department. However, the Office of Science's Chicago
Office officials, responsible for oversight of Science and SBIR/STTR recipients, acknowledged
that they were not always timely in following up on whether recipients submitted the reports, and
did not consistently send letters to remind recipients at the end of the award term. They noted,
however, that a corrective action plan was developed to address this issue. In contrast, we were
told that Nuclear Energy, Fossil Energy, and EERE have computer systems in place to send
reminders to recipients to submit the technical reports at the end of the award term and
periodically thereafter. However, despite these reminders, EERE's Golden Field Office told us
that recipients failed to submit final reports as required. While mechanisms were in place to
remind recipients of requirements, our findings suggest the mechanisms were not fully effective.
In addition, Fossil Energy stated that recipients might have been unable or unwilling to submit a
final report due to the unavailability of funding or key personnel on a recipient's project team.

Furthermore, our findings indicate that there was little consequence for recipients for not
submitting required reports. The Department's Guide to Financial Assistance lists possible
remedies for recipients with overdue reports, such as debarment or denial of future awards.
Although the Chicago and Golden Offices both stated that these actions were options, neither
office could provide us with evidence they pursued these remedies, or whether the remedies
worked because the offices did not track their use. Finally, we found that none of the program




Details of Finding                                                                         Page 3
offices were using performance measures to help monitor and evaluate how timely reports were
being received and released to the public.

                                  Report Review Processes

We found that the most common reason for the lack of public dissemination of reports was
related to the failure of program offices to review and release the reports. Additionally,
weaknesses in the OSTI notification process and delays in award closeout contributed to delays
in public dissemination of reports. Specifically, the status of 757 of the 1,094 unreleased reports
(69 percent) was identified as "sent to releasing official," meaning these reports were awaiting
review by a program office releasing official. As of March 31, 2013, 495 of these reports had
been awaiting review for at least 1 year. After identifying these issues, we expanded our testing
to all reports awaiting review by all Department program offices. OSTI identified 2,355 final
technical reports that were in the status of "sent to releasing official" Department-wide as of
August 7, 2013. Of these reports, 1,202 had no identified restrictions on their release. Our
analysis showed that 784 were awaiting review for more than a year, which included 77 reports
that were awaiting review for 8 to 11 years.

We found that OSTI did not have automated mechanisms in place to remind program offices of
reports awaiting review. When an award recipient submits a final report in E-Link, the system
generates an email to the appropriate releasing official or awarding office for review and release.
For cases in which the email is sent to the awarding office, that office is then responsible for
ensuring the appropriate releasing official is notified that the report is available for review. This
email is the only scheduled notification to the releasing official or awarding office and represents
a single point of failure. For example, the single notification could be ignored, forgotten,
deleted, or routed to the wrong person. After the initial notification, there are no automated
reminders to releasing officials or awarding offices to review the reports. We did learn that
reports are available within the E-Link system to check the status of reviews, and that these
reports were highlighted during recent training sessions. Further, there are several reasons why a
report's release may be delayed. For example, during our discussions with the program offices,
we learned that a report may be delayed due to revisions requested from the awardee or due to
patent issues. In addition, we learned that the Chicago Office was not releasing the final
technical reports until an award was closed out. If there is a delay in the closeout of an award,
there will be a delay in the release of the final report. As we noted in Management Controls over
Monitoring and Closeout of Small Business Innovation Research Phase II Grants (OAS-M-08-
09, July 2008), and The Department of Energy's Small Business Innovation Research and Small
Business Technology Transfer Programs (DOE/IG-0876, November 2012), performing timely
closeouts has been a weakness at the Chicago Office. The Chicago Office indicated that there
were several new protocols and policies in place to correct the past deficiencies and it expected
resolution of this finding on or around September 30, 2014.

                                       Processing Errors

We found that 337 of the 1,094 unreleased reports (31 percent) at the 5 offices included in our
review were caused by processing errors. For example, 201 Science and SBIR/STTR reports
that should have been available for public release had been erroneously labeled as "DOE



Details of Finding                                                                          Page 4
Dissemination Only," which did not permit their release to parties outside of the Department.
We were told that these errors were caused by the incorrect selection of the "DOE Dissemination
Only" option, available during the completion of the E-Link record by the releasing official.
OSTI has since changed how this option is presented to releasing officials. While OSTI made
this change, there is no standardized definition of when reports should be designated for "DOE
Dissemination Only."

Another 99 reports were affected by submission errors in which recipients had attempted, but not
succeeded in submitting final technical reports to the E-Link system. When a recipient fails to
properly submit a report, the program offices are not aware that the document exists unless they
query the system for the particular award number or run a report of failed submissions within
E-Link. Program offices receive no direct notification of the attempted submission. We found
that OSTI did not have a systematic means to follow-up on these processing errors. OSTI
officials told us that when recipients submit reports into E-Link, there may be errors in the
submission process that are flagged by the system for the submitter to correct. If the error is not
corrected before the amount of time allowed by the system, entities submitting the report have to
start the process over. Occasionally OSTI will see records that failed in the system and delete
these records if the recipient submitted a new record, but officials acknowledged this process is
applied on an inconsistent basis.

                               Expired Restrictions Processes

We found that there were no processes in place to identify and release SBIR/STTR and CRADA
final reports after the expiration of the appropriate data protection periods. OSTI officials stated
that they do not automatically release the reports because the reports may contain other protected
information. Therefore, they stated that program office officials or the CRADA site must review
the reports and approve the release of reports. However, OSTI did not routinely notify CRADA
sites that the final reports were awaiting review and release.

In our discussion with an SBIR/STTR Programs Office official, we learned that the programs
office only releases a report once a request is made to view that specific report. The
SBIR/STTR's policy on disseminating technical reports states that the reports can be released 4
years after submission if the SBIR/STTR Programs Office obtains confirmation from the small
business that it has been 4 years since the last deliverable utilizing that research. If the small
business cannot be contacted, the report may be released 12 years after submission. All reports
may be released 20 years after submission. However, all of these actions only occur after
someone has made a request and effectively limit the dissemination of reports to those
individuals that are aware of the existence of a specific report, thereby, preventing others from
discovering/finding the report using OSTI's information search capabilities. From 2009 to 2013,
the program office released 35 reports that once were subject to the SBIR/STTR 4-year time
restriction. This is a small number of reports considering there were 3,892 SBIR/STTR reports
potentially available to the public. The official told us that identification of the expiration of data
protection periods is complicated by the fact that the periods can be extended. Specifically, the
data protection period is defined as at least 4 years from when the final deliverable is received
under the award; however, the period can be extended by a subsequent award using the data
contained in the report. We found no process in place to systematically identify the proper



Details of Finding                                                                            Page 5
expiration dates of the data protection periods and prompt a review to determine whether the
reports should be publicly released. As for the CRADA reports, several of the Department site
operating contractor officials we contacted told us that they were unaware that further action was
required to release these reports after the period of protection expires.

Potential for Wasteful Spending

The Department has stated that accelerating the dissemination of research and development
information serves to accelerate the pace of scientific progress itself, and that success should be
measured when scientific and technical information is disseminated. By not ensuring that
technical reports had been disseminated, the Department had not ensured that research results
produced the maximum return on taxpayer investment. Moreover, the lack of documented
Department research and development increases the likelihood of redundant research and
wasteful spending.

OSTI officials told us that they are taking corrective actions on several of the issues we brought
to their attention during the course of our audit. Specifically, they plan to send reminder emails
for delinquent report reviews, provide quarterly notification to program offices experiencing
large numbers of failed submissions, and decide whether the "DOE Dissemination Only"
designation continues to be useful. OSTI officials also informed us that they were updating their
computer system to automatically generate an email to the CRADA site when the 5-year
CRADA protection period expires asking the site to update the record, and will send updated
listings of CRADA reports residing in the OSTI collection for which the 5-year withholding
period has expired.




Details of Finding                                                                          Page 6
RECOMMENDATIONS
To address the issues noted in this report and ensure that research results are publicly
disseminated to the greatest extent possible, we recommend that the Acting Director, Office of
Scientific and Technical Information:

   1. Develop an automated means to notify releasing officials when reports have been waiting
      for release for an extended period of time, including developing a standard for the
      amount of time a releasing official should have to perform the review;

   2. Establish procedures and performance measures to monitor the timely release of final
      technical reports;

   3. Develop procedures to ensure that processing errors are addressed in a timely manner;

   4. Develop procedures to address when it is appropriate to use "DOE Dissemination Only;"
      and

   5. Establish, in consultation with Department program offices and CRADA sites, a process
      to facilitate the release of CRADA reports beyond the periods of protection.

We also recommend that the Acting Director, Office of Science; the Assistant Secretaries of
Energy Efficiency and Renewable Energy and Nuclear Energy; and the Principal Deputy
Assistant Secretary for Fossil Energy:

   6. Develop procedures and performance measures to ensure that financial assistance
      recipients submit final technical reports at the completion of award terms;

   7. Track the usage of, and gauge the effectiveness of remedies, such as debarring or denying
      awards to recipients that do not meet reporting requirements; and

   8. Ensure reports are reviewed and released to the public as soon as practicable.

We also recommend that the Acting Director, Office of Science:

   9. Revise the release policy for SBIR/STTR technical reports to ensure technical
      information is disseminated in the timeliest manner possible.




Recommendations                                                                         Page 7
MANAGEMENT RESPONSE
Management generally concurred with our recommendations and identified planned actions or
actions already completed to address our recommendations. Regarding Recommendations 1
through 5, OSTI stated it would work with the programs to further develop guidance and
enhance the understanding of the processes. It would also send email reminders and develop
new reports to help track the status of the reports. Regarding Recommendations 6 through 8, the
program offices indicated that they will or have already taken measures to receive, track, and
release reports more timely. The Office of Fossil Energy partially concurred with
Recommendations 6 and 7 because it took issue with the scope of our finding. The Office of
Fossil Energy stated that the number of awards without a final report was significantly less than
the 51 stated in our report. Specifically, it reported there were fewer than 20 reports past due and,
within the last 2 months it reduced this number to fewer than 10. When addressing
Recommendation 9, the Office of Science partially concurred because it was concerned about the
administrative burden with releasing the SBIR/STTR technical reports; however, it agreed to
explore options to improve the timeliness of dissemination.

AUDITOR COMMENTS
The Department's planned corrective actions are responsive to our recommendations.

Regarding the Office of Fossil Energy's comments, we determined that the 51 reports identified
in Table 1 were not contained in E-Link at the time of our audit. As discussed with officials
during the audit, we determined that 38 of the 51 missing reports had been received; however,
the Office of Fossil Energy had deleted these reports from E-Link until they could be approved
for release. We believe that Office of Fossil Energy actions to delete the reports diminish the
value of E-Link as it is not possible to learn the status of reports awaiting review. Further, OSTI
cannot determine the number of reports received and awaiting review. Management's comments
are included in Appendix 3.




Management Response and Auditor Comments                                                    Page 8
                                                                               APPENDIX 1

                   OBJECTIVE, SCOPE AND METHODOLOGY
Objective

The objective of this audit was to determine whether the results of Department of Energy
(Department) funded science and energy research were properly disseminated to the public.

Scope

We conducted this audit from April 2013 to May 2014, at the Office of Scientific and Technical
Information (OSTI) in Oak Ridge, Tennessee. We also contacted and requested information for
financial assistance awards from the Offices of Fossil Energy, Nuclear Energy, Energy
Efficiency and Renewable Energy, and Science in addition to Small Business Innovation
Research (SBIR) and Small Business Technology Transfer (STTR) grants. We then contacted
six contractor sites to discuss release of final reports for Cooperative Research and Development
Agreements (CRADAs) at Brookhaven National Laboratory, Lawrence Livermore National
Laboratory, Oak Ridge National Laboratory, Pacific Northwest National Laboratory, Sandia
National Laboratory, and the Y-12 National Security Complex. Our review was limited to the
results of financial assistance awards and CRADAs. This audit was conducted under the Office
of Inspector General Project Number A13CH026.

Methodology

To accomplish the audit objective, we:

   •   Reviewed laws, regulations and Department directives and manuals related to the
       dissemination of research.

   •   Visited OSTI and obtained an understanding of its collections, processes and systems.

   •   Held discussions with responsible Department and contractor personnel.

   •   Obtained and reviewed listings of financial assistance awards ending in Fiscal Years
       (FYs) 2006 through 2012 for selected program offices.

   •   Obtained the status of final technical reports for financial assistance awards ending in
       FYs 2006 through 2012.

   •   Reviewed a listing of the final reports claiming the SBIR/STTR restriction to determine
       how many reports had not been made publicly available.

   •   Reviewed a listing of final reports for CRADAs to determine how many reports had not
       been made publicly available.

   •   Selected a judgmental sample of four Department program offices as well as the
       Department's SBIR/STTR awards to review the status of the final technical reports for


Objective, Scope and Methodology                                                           Page 9
                                                                              APPENDIX 1
       financial assistance awards made by those programs. We selected programs that were
       amongst the largest submitters of reports to OSTI based on preliminary data we reviewed
       for the number of reports submitted during FYs 2006 through 2012. We also selected six
       contractor sites to review the process used to publicly release final CRADA reports to the
       public. We selected the six sites with the most reports that had been submitted more than
       5 years prior to our review but were not publicly available. Because a judgmental sample
       of programs and sites was used, results were limited to those programs and sites selected.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Accordingly, we assessed
significant internal controls and compliance with laws and regulations necessary to satisfy the
audit objective. In particular, we assessed the implementation of the GPRA Modernization Act of
2010 and found that performance measures had not been established. Because our review was
limited, it would not necessarily have disclosed all internal control deficiencies that may have
existed at the time of our audit. Finally, we conducted an assessment of computer-processed
data relevant to our audit objective and we determined that the data was sufficiently reliable for
the purposes of our report.

An exit conference was held with the Office of Science on May 7, 2014. The Offices of Energy
Efficiency and Renewable Energy, Nuclear Energy and Fossil Energy waived an exit conference.




Objective, Scope and Methodology                                                        Page 10
                                                                              APPENDIX 2

                                    PRIOR REPORTS

   •   Audit Report on Cooperative Research and Development Agreements at National
       Nuclear Security Administration Laboratories (OAS-M-13-02, March 2013). The audit
       found that National Nuclear Security Administration (NNSA) laboratories were generally
       managing the use of selected Cooperative Research and Development Agreements
       (CRADA) in an effective manner. However, the audit noted that controls could be
       improved in the area of obtaining and disseminating CRADA results. Specifically,
       NNSA laboratories had not always obtained final reports from researchers and had not
       forwarded the reports they did obtain to the Office of Scientific and Technical
       Information (OSTI) for dissemination.

   •   Audit Report on The Department of Energy's Small Business Innovation Research and
       Small Business Technology Transfer Programs (DOE/IG-0876, November 2012). Grant
       closeouts continued to be an issue as the number of Small Business Innovation Research
       (SBIR) grants awaiting closeout for more than 3 years had increased significantly since a
       2008 audit, from 84 to 252. The audit also identified 12 Small Business Technology
       Transfer (STTR) grants that had been awaiting closure for more than 3 years. The
       Department of Energy (Department) had not received final financial status reports for 156
       of these grants, despite the requirement that grantees submit the reports within 90 days of
       the completion of the grant term. We found no evidence that Chicago Office officials
       had attempted to contact half of these grantees to request closeout documents, even
       though its closeout procedures called for sending a letter requesting documents 15 days
       after the end of the award term.

   •   Audit Report on Cooperative Research and Development Agreements at the Department
       of Energy's Office of Science Laboratories (DOE/IG-0826, September 2009). The audit
       found that although the Office of Science generally managed CRADAs according to
       Departmental requirements, it did not always ensure that its laboratories received final
       reports and forwarded them to OSTI. The audit noted that site offices did not exercise
       adequate oversight of CRADA activities at the laboratories, and had not established goals
       and measures to evaluate the success of the laboratories in obtaining the final reports and
       forwarding them to OSTI.

   •   Audit Report on Management Controls over Monitoring and Closeout of Small Business
       Innovation Research Phase II Grants (OAS-M-08-09, July 2008). The audit found that
       the Chicago Office had not completed action on or was unable to provide files for 73 out
       of 84 (87 percent) of SBIR Phase II grants with completion dates exceeding 3 years.
       Since the 3-year document retention period had expired, untimely closeouts jeopardized
       the Department's ability to audit the costs.

   •   Audit Report on Dissemination of Research from the Environmental Molecular Sciences
       Laboratory (DOE/IG-0526, September 2001). The audit found that officials at the
       Environmental Molecular Sciences Laboratory (EMSL) often did not collect and forward
       research results to OSTI. In fact, EMSL officials had not received deliverables for 94 out
       of 153 completed research projects and therefore, could not forward them to OSTI. Even


Prior Reports                                                                           Page 11
                                                                             APPENDIX 2
       when research results were received, those results were not always sent to OSTI. Only
       60 out of 700 deliverables received had been sent to OSTI.

   •   Audit Report on Peer-Reviewed Scientific Literature Generated at the Department's
       Light Sources (DOE/IG-0520, August 2001). The audit noted that only 44 percent of the
       abstracts associated with the research performed at the Department's light sources in
       Fiscal Year 2000 were available for public dissemination through OSTI. This was
       attributed to OSTI's lack of procedures to ensure all abstracts were collected in the
       PubSCIENCE database. Additionally, laboratories did not notify OSTI of available peer-
       reviewed journal articles. As a result, scientific advancement was not fully promoted and
       research and development efforts were more likely to be duplicated because scientists
       were not aware of research already performed.

   •   Audit Report on Departmental Receipt of Final Deliverables for Grant Awards
       (DOE/IG-0415, December 1997). Over 700 grants awarded through Headquarters,
       Chicago and Oak Ridge Operations Offices, the Federal Energy Technology Center, and
       the Chicago Regional Support Office did not receive final technical and financial reports
       and, in some cases, final deliverable requirements were waived. Without the final
       deliverables, the report concluded that the Department could not demonstrate that the
       public benefit specified in the grant instrument was achieved.

   •   Audit Report on Department of Energy's Scientific and Technical Information Process
       (DOE/IG-0407, June 1997). The Department and its management and operating (M&O)
       contractors are required to establish life-cycle systems to identify, collect, and
       disseminate scientific and technical products generated under Department funded
       research and development activities and provide these products to OSTI. The
       Department neither utilized a life-cycle management process nor ensured that all
       information generated by its M&O contractors was provided to OSTI. As a consequence,
       the Department was not in a position to know whether it received value for its significant
       investment in research and development or whether information emanating from these
       efforts received the widest possible dissemination.




Prior Reports                                                                          Page 12
                                            APPENDIX 3

                      MANAGEMENT COMMENTS




Management Comments                              Page 13
                      APPENDIX 3




Management Comments        Page 14
                      APPENDIX 3




Management Comments        Page 15
                      APPENDIX 3




Management Comments        Page 16
                      APPENDIX 3




Management Comments        Page 17
                      APPENDIX 3




Management Comments        Page 18
                      APPENDIX 3




Management Comments        Page 19
                      APPENDIX 3




Management Comments        Page 20
                      APPENDIX 3




Management Comments        Page 21
                      APPENDIX 3




Management Comments        Page 22
                      APPENDIX 3




Management Comments        Page 23
                                        FEEDBACK
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
